No. ________

IN THE

Supreme Court of the United States
TAMRA L. LAMPRELL
Petitioner,
v.
REX E. STUCKEY,
Respondent.

On Petition for Writ of Certiorari to
the Supreme Court of the State of New Mexico

APPLICATION OF TAMRA LAMPRELL FOR EXTENSION OF
TIME TO FILE A PETITION FOR A WRIT OF CERTIORARI

Charlotte H. Taylor
Counsel of Record
JONES DAY
51 Louisiana Avenue, NW
Washington, DC 20001-2113
(202) 879-3872
ctaylor@jonesday.com
Counsel for Applicant

To the Honorable Sonia Sotomayor, Associate Justice of the Supreme Court
and Circuit Justice for the Tenth Circuit:
1.

Pursuant to Supreme Court Rules 13.5, 22, and 30, and 28 U.S.C.

§ 2101(c), Applicant Tamra Lamprell respectfully requests a 60-day extension of
time, to and including Friday, October 4, 2019, to file a petition for a writ of
certiorari to seek review of the decision below.
2.

The Supreme Court of New Mexico entered an order denying Ms.

Lamprell’s petition for a writ of certiorari on April 9, 2019. Stuckey v. Lamprell, No.
S-1-SC-37579 (Appendix A). It then denied Ms. Lamprell’s motion for rehearing on
May 6, 2019. Stuckey v. Lamprell, No. S-1-SC-37579 (Appendix B). Pursuant to
Supreme Court Rule 13.3, the time to file a petition for certiorari runs from the date
of the denial of rehearing. Currently, the time to file a petition for certiorari will
expire on August 5, 2019. This Application is being filed over ten days before the
petition is due. See Sup. Ct. R. 13.5. The jurisdiction of the Court in this case will
be invoked under 28 U.S.C. § 1257(a).
3.

This case presents an important issue of federal due process: what

procedural safeguards are constitutionally required when a court orders an
emergency transfer of child custody based on ex parte submissions. The New
Mexico district court in this case ordered immediate transfer of Ms. Lamprell’s child
to Respondent’s custody without any prior notice or hearing. Ms. Lamprell did not
obtain discovery of the materials that formed the basis of the court’s decision until
almost a full year later. A hearing on the basis for the emergency transfer was not

-1-

held until thirteen months after the initial transfer order. The New Mexico Court of
Appeals held that there was no violation of Ms. Lamprell’s federal constitutional
right to due process of law. Stuckey v. Lamprell, No. A-1-CA-35538 (Dec. 18, 2018)
(Appendix C); see also Stuckey v. Lamprell, No. A-1-CA-35538 (N.M. Ct. App. Feb.
11, 2019) (Appendix D) (denying rehearing).
4.

Applicant has good cause for an extension of time. Because Ms.

Lamprell and her previous counsel, a local practitioner in New Mexico, are not
experts in this Court’s certiorari practices, on July 2, 2019, Ms. Lamprell engaged
the law firm of Jones Day in Washington, D.C., to prepare her petition for
certiorari. Given its experience, Jones Day is better able to prepare a petition that
will assist this Court in evaluating the case. The record in this case is voluminous
and procedurally complicated. The quality of the petition would greatly benefit
from an extension of time to allow Jones Day to become familiar with the
background of the case and complete the requisite research and writing.
WHEREFORE, Applicant respectfully requests that an order be entered
extending the time to file a petition for a writ of certiorari for 60 days, to and
including October 4, 2019.

-2-

Dated: July 9, 2019
Respectfully submitted,
/s/ Charlotte H. Taylor
CHARLOTTE H. TAYLOR
Counsel of Record
JONES DAY
51 Louisiana Avenue, NW
Washington, DC 20001
(202) 879-3872
ctaylor@jonesday.com
Counsel for Applicant

-3-

